No.

CERTIFICATE OF SERVICE

ERNEST HEMSCHOT,
Petitioner
v.

FLORIDA DEPARTMENT OF AGRICULTURE AND
CONSUMER SERVICES, DIVISION OF LICENSING,
Respondent

As required by Supreme Court Rule 29,1 certify that a copy of this petition for a writ
of certiorari with appendix was sent via Federal Express on October 9, 2020 to Leslie
Bovis Fearington, Senior Attorney, counsel for the Florida Department of Agriculture
and Consumer Services, Division of Licensing, 4040 Esplanade Way, 1st Floor, Ste.
125K, Tallahassee, Florida 32399.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 9, 2020.

Ernest Hemschot III, Petitioner

RECEIVED

OCT 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

